         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Evaluation Report
The Federal Energy Regulatory
Commission's Unclassified Cyber
Security Program – 2013




OAS-M-14-01                          October 2013
                                 Department of Energy
                                    Washington, DC 20585
                                        October 23, 2013


MEMORANDUM FOR THE EXECUTIVE DIRECTOR, FEDERAL ENERGY
               REGULATORY COMMISSION


FROM:                    Rickey R. Hass
                         Deputy Inspector General
                            for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Evaluation Report on "The Federal Energy
                         Regulatory Commission's Unclassified Cyber Security Program – 2013"

BACKGROUND

The Federal Energy Regulatory Commission (Commission) is an independent agency within the
Department of Energy (Department) responsible for, among other things, regulating the interstate
transmission of the Nation's electricity, natural gas and oil. To realize its mission, the
Commission gathers and analyzes significant amounts of data related to energy markets, using a
wide range of information technology resources. As highlighted by recent cyber attacks on
Federal entities, including the Department, the information security threat of a breach or loss of
information technology assets or information contained in these assets continues to increase as
attacks become more sophisticated and prevalent. To help protect against continuing cyber
security threats, the Commission estimated that it would spend approximately $5.8 million
during Fiscal Year (FY) 2013 to secure its information technology assets, a 9 percent increase
compared to FY 2012.

The Federal Information Security Management Act of 2002 (FISMA) established requirements
for Federal agencies related to the management and oversight of information security risks and to
ensure that information technology resources were adequately protected. As directed by FISMA,
the Office of Inspector General conducted an independent evaluation of the Commission's
unclassified cyber security program to determine whether it adequately protected data and
information systems. This report presents the results of our evaluation for FY 2013.

RESULTS OF EVALUATION

The Commission had taken action to improve its cyber security posture and mitigate risks
associated with the weaknesses identified during our FY 2012 evaluation. Our current
evaluation, however, disclosed that additional opportunities existed to better protect information
systems and data. In particular, we continued to identify weaknesses related to the Commission's
timely remediation of software vulnerabilities.
Due to security considerations, information on specific vulnerabilities has been omitted from this
report. However, management was provided with detailed information regarding identified
vulnerabilities and, in certain instances, had initiated corrective action.

                                        Positive Aspects

The Commission had taken a number of positive actions related to enhancing its unclassified
cyber security program. For example, the Commission continued to make improvements in
implementing the existing Vulnerability Management Program. Specifically, we found that the
Commission:

   •   Continued implementation of a project to upgrade the software tool used to manage patch
       and software deployment. This project is expected to be completed in October 2013 and
       should reduce the need to manually update systems.

   •   Effectively designed and operated general and application information technology
       controls such as access controls and contingency planning measures to protect its
       information.

   •   Created a process to implement longstanding missing patches. Specifically, Commission
       officials conducted weekly status meetings to discuss and prioritize outstanding software
       patches so that critical and high-risk patches are tested and implemented. Officials told
       us that they hoped to have longstanding missing patch issues resolved by November
       2013.

                                       Patch Management

Although progress had been made to secure the Commission's servers and workstations, our
review of Commission vulnerability scan results identified additional opportunities for it to
ensure that all devices were patched in a timely manner. Specifically, we noted:

   •   132 workstations and servers contained vulnerable productivity applications;

   •   114 workstations and servers were using vulnerable software utilities;

   •   23 workstations and servers had antivirus applications with known vulnerabilities; and

   •   460 workstations and servers had utilized vulnerable web browser applications.

Each of the vulnerabilities were considered to be critical or high risk; however, we were unable
to determine how long the vulnerabilities existed in the environment based on the information
provided by Commission officials. As noted by the National Institute of Standards and
Technology, proactively identifying and remediating system vulnerabilities can reduce or
eliminate the potential for exploitation and involves considerably less time than responding to
exploitation of vulnerabilities.



                                                2
                                     Policy Implementation

Similar to prior years, the problems we identified with the Commission's Vulnerability
Management Program were due, in part, to policies and procedures that were not fully effective.
Specifically, even though the Commission had taken action to strengthen its Vulnerability
Management Program, our review found that the Commission had not fully updated existing
security patch management and vulnerability management processes and technical controls to
address the recommended actions. We determined that vulnerabilities similar in type, frequency
and risk level to those identified during our FY 2012 evaluation continue to exist in the
Commission's information technology environment. Officials stated, and we agree, that
successful completion of the Commission's ongoing project to update its Vulnerability
Management Program policies and patch management technologies is important to maintaining
an effective security posture.

                         Risks to Commission Systems and Information

The Commission had continued to make progress in improving its cyber security posture;
however, additional actions are needed to reduce the risk to the agency's information systems and
data. For instance, workstations and network servers running vulnerable applications and
utilities were at a heightened risk for malicious attacks that could result in the compromise of
those systems and/or the information contained within those systems. We noted that an attacker
could exploit the vulnerabilities to gain unauthorized access to systems, applications and
sensitive data, including financial systems and data, which could disrupt normal business
operations or have negative impacts on system and data reliability.

RECOMMENDATION

To correct the weaknesses identified in this report and improve the effectiveness of the
Commission's unclassified cyber security program, we recommend that the Executive Director,
Federal Energy Regulatory Commission:

   •   Update, as needed, and implement existing vulnerability and patch management
       procedures to ensure that security vulnerabilities are remediated and verified in a timely
       manner, in accordance with the Vulnerability Management Program.

MANAGEMENT REACTION

The Commission concurred with the report's recommended action and stated that it had initiated
corrective action to address weaknesses identified in the report. In particular, management
commented that the Commission is in the process of reviewing and updating all existing policies,
procedures and security program documentation related to vulnerability and patch management.

AUDITOR COMMENTS

Management's comments were responsive to our recommendation and are included in
Attachment 3.



                                                3
Attachments

cc:   Deputy Secretary
      Chief of Staff




                         4
                                                                                   Attachment 1


                      OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

To determine whether the Federal Energy Regulatory Commission's (Commission) unclassified
cyber security program adequately protected data and information systems.

SCOPE

The evaluation was performed between May and October 2013, at the Commission's
Headquarters in Washington, DC. Specifically, KPMG, LLP (KPMG), the Office of Inspector
General's contract auditor, performed an assessment of the Commission's unclassified cyber
security program. The evaluation included a review of general and application controls in areas
such as security management, access controls, configuration management, segregation of duties
and contingency planning. In addition, KPMG reviewed the Commission's results of
workstation and server authenticated scans for the period of May and June 2013.

METHODOLOGY

To accomplish our objective, we:

   •   Reviewed Federal laws and regulations related to controls over information technology
       security such as the Federal Information Security Management Act of 2002, Office of
       Management and Budget Memoranda and National Institute of Standards and
       Technology standards and guidance.

   •   Evaluated the Commission in conjunction with its annual audit of the Financial
       Statements, utilizing work performed by KPMG. Office of Inspector General and KPMG
       work included analysis and testing of general and application controls for the network
       and systems and review of the network configuration.

   •   Reviewed the overall unclassified cyber security program management, including the
       Commission's policies, procedures and practices.

   •   Held discussions with Commission officials and reviewed relevant documentation.

   •   Reviewed prior reports issued by the Office of Inspector General and the U.S.
       Government Accountability Office.

We conducted this evaluation in accordance with generally accepted Government auditing
standards. Those standards require that we plan and perform the effort to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
finding and conclusions based on our evaluation objective. Accordingly, we assessed significant
internal controls and the Commission's implementation of the GPRA Modernization Act of 2010
and determined that it had established a performance measure for its information and
unclassified cyber security program. Because our evaluation was limited, it would not have

                                               5
                                                                       Attachment 1 (continued)


necessarily disclosed all internal control deficiencies that may have existed at the time of our
evaluation. We relied on computer-processed data to satisfy our objective. In particular, KPMG
reviewed the results of authenticated scans for workstations and servers for the period of May
and June 2013. We validated the results of the scans by confirming the weaknesses disclosed
with responsible on-site personnel.

An exit conference was waived by the Commission.




                                               6
                                                                                       Attachment 2


                                        PRIOR REPORTS

•   Evaluation Report on The Federal Energy Regulatory Commission's Unclassified Cyber
    Security Program – 2012, (OAS-L-13-01, November 2012). The Federal Energy Regulatory
    Commission (Commission) had taken actions to improve its cyber security posture and
    mitigate risks associated with weaknesses identified during our Fiscal Year (FY) 2011
    evaluation. While these actions are noteworthy, our evaluation disclosed additional
    opportunities existed to better protect its information systems and data. Specifically, we
    continued to identify weaknesses related to the Commission's timely remediation of software
    vulnerabilities. The problems we identified with the Commission's vulnerability
    management process were due, in part, to less than fully effective implementation of policies
    and procedures. In addition, Commission officials informed us that they did not follow their
    existing Vulnerability Management Program policies due to budget and resource constraints.
    As corrective action was initiated by management in certain instances, we made a suggestion
    to update existing vulnerability and patch management procedures as needed to ensure that
    security vulnerabilities are remediated and verified in a timely manner.

•   Evaluation Report on The Federal Energy Regulatory Commission's Unclassified Cyber
    Security Program – 2011, (OAS-M-12-01, November 2011). The Commission had taken
    actions to improve its cyber security posture and mitigate risks associated with certain issues
    identified during our FY 2010 evaluation. While these measures were noteworthy, our
    evaluation disclosed that additional action was needed to further protect information systems
    and data. Specifically, we continued to identify weaknesses related to the Commission's
    timely remediation of software vulnerabilities. The problems we identified with the
    Commission's vulnerability management program were due, in part, to less than fully
    effective implementation of policies and procedures. Although the Commission continued to
    make progress in improving its cyber security posture, additional actions were needed to
    further reduce the risk to the agency's information systems and data. Management concurred
    with the report's recommendations and commented that it had initiated actions to address
    weaknesses identified during our evaluation.

•   Evaluation Report on The Federal Energy Regulatory Commission's Unclassified Cyber
    Security Program – 2010, (OAS-M-11-01, October 2010). The Commission had taken
    actions to significantly improve its cyber security posture and mitigate risks associated with
    each of the four weaknesses we identified during our FY 2009 evaluation. However,
    additional action was needed to improve protection of information systems and data.
    Specifically, we found that security patches needed to resolve known vulnerabilities
    discovered during regularly scheduled scans were not applied to all workstations in a timely
    manner. In addition, even though officials had established an automated mechanism for
    tracking all known vulnerabilities, only 10 percent of the identified "high risk" vulnerabilities
    were actually being tracked. The problems we identified with the Commission's unclassified
    cyber security program were due, in part, to the less than fully effective implementation of
    policies and procedures. As such, the risk to the agency's information systems and data
    remained higher than necessary. Management concurred with the report's recommendations
    and commented that it had initiated actions to address weaknesses identified during our
    evaluation.


                                                  7
                      Attachment 3


MANAGEMENT COMMENTS




         8
    Attachment 3 (continued)




9
                                                                    IG Report No. OAS-M-14-01


                           CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2.   What additional information related to findings and recommendations could have been
          included in the report to assist management in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have taken on the issues
          discussed in this report which would have been helpful?

     5.   Please include your name and telephone number so that we may contact you should
          we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

   If you wish to discuss this report or your comments with a staff member of the Office of
   Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                  U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
